No. 20-565

IN THE SUPREME COURT OF THE UNITED STATES

George Matthews and Nina Matthews,
Petitioners,
V.

Andrew J. Becker and David J. Merbaum,
Respondents.

On Petition for Writ of Certiorari to the United States
Court of Appeals for the Eleventh Circuit

RESPONDENTS' BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI

David J. Merbaum
Georgia Bar Number: 006700
dmerbaum@mbpclaw.com
Andrew J. Becker
Georgia Bar Number: 142595
abecker@mbpclaw.com
Merbaum & Becker, P.C.
5755 North Point Parkway, Suite 284
Alpharetta, Georgia 30022
P: 678 393 8232

RESPONDENTS

1

QUESTION PRESENTED
I.

Whether the Eleventh Circuit properly affirmed the District Court's

denial of the Petitioners' Motion for Contempt Against Attorneys David Merbaum
and Andrew Becker (together, "Respondents") where the motion is based on the
alleged violation of an order that merely required an attempt at reconciliation,
which actually occurred, and where the order did not adjudicate any disputes
between the Petitioners and their former counsel concerning amounts due and
owing to their former counsel, Respondents.1

1 Petitioners have not raised the denial of their Motion to Recuse District Court
Judge Steve C. Jones in their Petition for Writ of Certiorari and, accordingly,
appear to have waived that argument on this appeal.
11

CORPORATE DISCLOSURE STATEMENT
Pursuant to Sup. Ct. R. 29.6, Respondents certify that there are no parent
corporations involved in this appeal and no publicly held corporation owns 10% or
more of the Respondents' law firm, Merbaum & Becker, P.C. f/k/a Merbaum Law
Group, P.C.

dre
. Becker
· Georgia Bar No. 142595
Respondents

111

TABLE OF CONTENTS
QUESTION PRESENTED ............................................................................................ ii
CORPORATE DISCLOSURE STATEMENT.............................................................. iii
TABLE OF CONTENTS .............................................................................................. iv
TABLE OF AUTHORITIES ...........................................................................................v
OPINION AND ORDER BELOW..................................................................................1
CONSTITUTIONAL AND STATUTORY PROVISIONS AT ISSUE ........................... 2
STATEMENT OF THE CASE ....................................................................................... 3
Course of Proceedings and Disposition Below ........................................................... 3
Statement of Facts ...................................................................................................... 5
Standard of Review .....................................................................................................9
SUMMARY OF THE ARGUMENT .............................................................................10
ARGUMENT AND CITATIONS OF AUTHORITY ....................................................11
I. The Petition meets none of the considerations for granting a petition for
writ of certiorari and the Petition makes no attempt to explain why a writ of
certiorari should be granted, instead arguing the merits of the case. ..................... 11
II. The Eleventh Circuit properly affirmed the denial of the Petitioners' Motion
for Contempt because there is no evidence in the record showing that the
Respondents violated any order of the court in the District Court Action............ 12
CONCLUSION .............................................................................................................18
CERTIFICATE OF COMPLIANCE ............................................................................19
CERTIFICATE OF SERVICE ..................................................................................... 20

IV

TABLE OF AUTHORITIES
Blanco GmbH t Co. KG v. Laera,
620 F. App'x 718, 723 (11th Cir. 2015) ........................................................................ 10
Ga. Power Co. v. NLRB, 484 F.3d 1288, 1291 (11th Cir. 2007) ..................................12
Kennedy v. Bell S. Telcoms., Inc.,
546 F. App'x 817, 819 (11th Cir. 2013) ..........................................................................9
McGregor v. Chierico, 206 F.3d 1378, 1383 (11th Cir. 2000) ..................................... 13
Shillitani v. United States, 384 U.S. 364, 370 (1966) ................................................. 12
United States v. Bailey, 175 F.3d 966, 968 (11th Cir. 1999) ...................................... 10

V

OPINION AND ORDER BELOW
1.

The June 2, 2020 unpublished opinion of the United States Court of Appeals
for the Eleventh Circuit is set forth in the Appendix to the Petition for a Writ
of Certiorari. See App. 6.

2.

The November 12, 2019 Order of the Honorable Steve C. Jones of the United
States District Court for the Northern District of Georgia is set forth in the
Appendix to the Petition for Writ of Certiorari. See App. 24.

1

CONSTITUTIONAL AND STATUTORY PROVISIONS AT ISSUE
Contrary to the Petitioners' assertions, there are no constitutional, statutory,
or regulatory provisions implicated by the Petition for Writ of Certiorari which seeks
review of the Eleventh Circuit's opinion affirming the denial of Petitioner's Motion
for Contempt against Respondents.

2

STATEMENT OF THE CASE
This appeal arises from the denial of Plaintiffs Motion to Recuse Judge Steven
C. Jones ("Motion to Recuse") and Plaintiffs Motion for Contempt Against Attorneys
David Merbaum and Andrew Becker ("Motion for Contempt") which motions were
filed over six years after judgment was entered in the matter of George Matthews and
Nina Matthews v. State Farm Fire and Casualty Company, in the United States
District Court for the Northern District of Georgia bearing civil action file number
1:10-CV-1641-WBH (hereinafter, the "District Court Action"). There is no question
of constitutional or statutory interpretation, or even a dispute as to what the law is.
The Petition for Writ of Certiorari ("Petition") demands review of a factual finding
made by Judge Jones in the District Court Action which was affirmed by the Eleventh
Circuit. There is simply no reason for this Court to distract itself with a simple fee
dispute that has already been exhaustively reviewed and affirmed time and again by
no less than 23 judges over the course of four appeals before the Court of Appeals of
Georgia, a petition for writ of certiorari filed with the Supreme Court of Georgia, the
Motion for Contempt filed in the District Court Action and the appellate panel of the
Eleventh Circuit (all of which rely on the same document). The Petitioners' pervasive
abuse of the judicial system is nothing more than a vain attempt to prevent collection
of the judgment entered against them for attorney's fees.

Course of Proceedings and Disposition Below
The District Court Action began with the removal of the case from the Superior
Court of Cobb County on May 27, 2010.

Upon State Farm Fire and Casualty

Company's ("State Farm") motion for summary judgment, an order and judgment
3

were entered in favor of State Farm and against George and Nina Matthews
("Matthewses" or "Petitioners") on February 13, 20 12.

Upon appeal of the order

granting State Farm's motion for summary judgment, the Eleventh Circuit affirmed
in the case bearing docket number 12-1 1125-BB on December 6, 20 12.
Over six years after the Eleventh Circuit affirmed the judgment against the
Matthewses, the Matthewses filed their Motion for Contempt on July 2, 20 19 against
David Merbaum and Andrew Becker (altogether, the "Respondents" or "M&B
Attorneys") followed by a Motion to Recuse2 on July 15, 20 19. The M&B Attorneys
filed "Respondent David J. Merbaum and Andrew J. Becker's Joint Response to
Plaintiffs' Motion for Contempt Against Attorneys David Merbaum and Andrew
Becker" ("Response to Motion for Contempt") on July 17, 2019. Both the Motion for
Contempt and Motion to Recuse were denied by written Order on November 12, 20 19.
App. 24.
The Matthewses appealed the denial of the Motion for Contempt and Motion
to Recuse to the Eleventh Circuit. The Eleventh Circuit affirmed the denial of the
Motion for Contempt and Motion to Recuse in an unpublished opinion. The Eleventh
Circuit held that Judge Jones did not abuse his discretion in the District Court Action
when he held that the M&B Attorneys were not in violation of any order issued in the
District Court Action and that the record did not support the Matthewses'

The Matthewses have not challenged the Eleventh Circuit's holding which
affirmed the denial of the Matthewses' frivolous Motion to Recuse Judge Jones.
2

interpretation of the order in the District Court Action for the Matthewses and the
M&B Attorneys to attempt reconciliation.

Statement of Facts
On March 30, 2010, Merbaum Law Group, P. C. ("Merbaum Law") and the
M&B Attorneys were retained to represent the Matthewses related to their claim
against State Farm for damages sustained to their residence which was the product
of an alleged covered loss under their insurance policy. After becoming disenchanted
with the Matthewses due to (1) the Matthewses' abrasive treatment of the M&B
Attorneys and (2) the Matthewses failure to pay their attorneys' fees, the M&B
Attorneys filed their first motions to withdraw from the representation. Supp. App.3
at 4-25. The Honorable Willis B. Hunt, who presided over the case prior to Judge
Jones, set an ex parte hearing on the first motions to withdraw for October 25, 2010
("Hearing"). Supp. App. at 26. The Matthewses and the M&B Attorneys appeared
at the motions hearing on October 25, 2010, the hearing was transcribed by Court
Reporter Lori Burgess, and a transcript was prepared4.
At the hearing on October 25, 2010, the M&B Attorneys advised Judge Hunt
that they sent a letter to the Matthewses stating that the M&B Attorneys were
willing to settle all amounts owed up to that point if the Matthewses would consent
to their withdrawal5•

3

After hearing arguments, Judge Hunt instructed the

The Matthewses discuss the merits of the appeal at length, so Respondents have
submitted a Supplemental Appendix so they may refer the Court to material
relevant to refute the Matthewses arguments in their Petition.
4 Judge Jones quoted the entire relevant passage of the Hearing transcript in his
order denying the Motion for Contempt. � at 29-31.
5 The Matthewses did not consent to the Respondents' motions to withdraw.

Matthewses and the M&B Attorneys to confer with each other to see if they could
.work out a resolution by the end of the week.

ili2Jh at 29-31.

Judge Hunt then stated

that if the Matthewses and the M&B Attorneys could not work out a resolution, Judge
Hunt would grant the first motion to withdraw on the conditions stated in the M&B
Attorneys letter. Id. The Minute Sheet entered into the record confirms Judge Hunt's
order to make another attempt to reconcile their differences.

ili2Jh at 9, fn. 2.

The Matthewses and the M&B Attorneys worked out a resolution pursuant to
Judge Hunt's instruction that they attempt reconciliation one last time by the week's
end. On October 28, 2010 (three days after the Hearing), the Matthewses executed
the Amendment to Attorney Client Agreement ("Amendment") which amended the
terms of the AC Agreement and provided for a resolution for the outstanding
indebtedness by the Matthewses to the M&B Attorneys.

Supp. App. at 27.

Specifically, the Amendment states that the Matthewses agree to pay the sum of
$7,500.00 to cover the work performed through October 27, 2010, that further work
will be billed at the rate of $225.00 per hour, and that the $1,500.00 retainer has been
applied to the prior bill and will not be used to pay the outstanding balance or future
bills. Id. The Matthewses admit that they signed the Amendment. Petition at 10.
On November 5, 2010, the Respondents withdrew their first motions to withdraw as
attorneys for the Plaintiffs based on their reconciliation with the Matthewses. Supp.

ili2Jh at 28.
The Plaintiffs failed to honor the Amendment and AC Agreement by failing to
pay the invoices when due. Accordingly, the Respondents filed another motion to

6

withdraw as counsel for the Plaintiffs ("Final Motion to Withdraw"). On January 5,
2011, the Court entered an Order granting the Final Motion to Withdraw and staying
discovery while the Plaintiffs sought new counsel. � at 89.
On May 7, 2015, the M&B Attorneys law firm, Merbaum Law Firm, P.C.
("Merbaum Law") filed suit to recover the amount owed by the Matthewses to
Merbaum Law in the Superior Court of Cobb County in the civil action styled
Merbaum Law Group, P. C. v. George Matthews and Nina Matthews and bearing civil

action file number 15-1-03498 ("Cobb Matter"). Supp. App. at 33. George Matthews
received a discharge in bankruptcy and was dismissed from the Cobb Matter on
January 6, 2017 (Cobb Matter docket entry 27). Supp. App. at 33. Judgment was
entered against Nina Matthews ("Matthews") and in favor of Merbaum Law on
August 4, 2017 ("Judgment") at docket entry 65 of the Cobb Matter. � at 72. In
lieu of going through the complete procedural history of the Cobb Matter which is
discussed solely to provide background as the Judgment is not on appeal, the M&B
Attorneys attached a true and accurate copy of the docket report for the Cobb Matter
to their Response to Motion for Contempt to demonstrate the extensive procedural
history which includes at least three attempts to appeal orders from the court in the
Cobb Matter and at least three motions to recuse the Judge Reuben Green from the
Cobb Matter. Supp. App. at 33-35.
On August 29, 2017, Matthews filed a notice of appeal seeking to appeal the
Judgment. The appeal was docketed with the Court of Appeals of Georgia on October
18, 2017 and assigned case number A18A0545 ("First Appeal"). Supp. App. at 36.

7

The Court of Appeals of Georgia affirmed the Judgment against Matthews on June
19, 2018. Id. Matthews filed a notice of intent to appeal to the Supreme Court of
Georgia. Id. On July 25, 2018, Matthews filed a Petition for a Writ of Certiorari to
the Supreme Court of Georgia to which Merbaum Law timely responded. Supp. App.
at 38. Matthews' petition to the Supreme Court of Georgia was likewise denied on
March 4, 2019 and remittitur occurred on March 19, 2019. Supp. App. at 36-37.
After the Supreme Court of Georgia denied certiorari and Judge Green denied
the Matthews' motion to recuse Judge Green from the Cobb Matter, Matthews filed
another notice of appeal, albeit an untimely notice, again seeking review of the
Judgment and also seeking review of the order denying her motion to recuse Judge
Green as well as Judge Green's order which merely adopted the Order of the Court of
Appeals upon remittitur. The appeal was docketed on May 15, 2019 and assigned
case number A19A2081 ("Second Appeal"). Supp. App. at 39. The Second Appeal was
dismissed on June 13, 2019 on the grounds of res judicata and lack of jurisdiction.
Supp. App. at 41-42.
The M&B Attorneys have provided the docket reports for the various courts
that have heard the same arguments from the Matthewses and rejected them to avoid
submitting the entirety of the records in each of the courts related to the Cobb Matter,
First Appeal and Second Appeal. The docket reports demonstrate the extremes to
which the Matthewses are going to avoid execution of the Judgment. During the
extensive procedural history of an otherwise uncomplicated matter related to the
failure to pay a former attorney, Matthews has accused virtually every entity of fraud,

8

suppressing evidence and unethical behavior. None of her accusations have merit
and all have been rejected by the Superior Court of Cobb County, Court of Appeals of
Georgia, Supreme Court of Georgia, the United States District Court for the Northern
District of Georgia and now the Court of Appeals for the Eleventh Circuit6 . Indeed,
although Judge Jones denied the M&B Attorneys' request for attorney's fees and the
Eleventh Circuit likewise denied attorney's fees because a separate motion was not
filed, Judge Jones saw fit to warn the Matthewses in his November 12, 2019 Order
("Order") "that any future filings that are without a plausible legal basis in the case

sub judice (that has been closed since 2012) may be subject to monetary and other
sanctions deemed appropriate by this Court and applicable rules/law." 7 � at 33
(emphasis in original). This appeal followed.

Standard of Review
The denial of a motion to recuse is reviewed for abuse of discretion and said
denial will be affirmed unless the reviewing court concludes "that the impropriety is
clear and one which would be recognized by all objective, reasonable persons."

See

e.g. Kennedy v. Bell S. Telcoms., Inc., 546 F. App'x 817, 819 (11th Cir. 2013) citing
6

The Eleventh Circuit addressed the Petitioners' allegations of suppressed orders
and transcript tampering in its opinion, finding no record evidence to support any
such allegations, noting that the entire transcript is available on the docket of the
District Court Action and there is no indication on the face of the transcript that it
has been altered or changed. � at 17.
7 The Court of Appeals of Georgia also advised Matthews that she is not entitled to
file multiple appeals seeking review of the Judgment, stating "it is axiomatic that
the same issue cannot be relitigated ad infinitum. Our determination in the earlier
appeal is res judicata; the instant appeal is therefore barred.... " Supp. App. at 4142. The Motion for Contempt is nothing more than an attempt to collaterally attack
the Judgment by suggesting that the Respondents violated a court order by
obtaining a Judgment in favor of their law firm.

to United States v. Bailey, 175 F.3d 966, 968 (11th Cir. 1999) (per curiam). An order
on a motion for contempt is similarly reviewed for an abuse of discretion.
GmbH

Blanco

t Co. KG v. Laera, 620 F. App'x 718, 723 (11th Cir. 2015).
SUMMARY OF THE ARGUMENT

Judge Jones properly denied the Motion for Contempt because there is no
evidence in the record supporting an inference or otherwise that the M&B Attorneys
violated any order in the District Court Action, which the Eleventh Circuit properly
affirmed. Indeed, the evidence shows that the Matthewses and the M&B Attorneys
were ordered to attempt reconciliation. They reconciled, signed the Amendment to
the AC Agreement and withdrew the motions to withdraw that were pending at the
time of the Hearing.

The Matthewses' arguments

are based solely on

misrepresentations about Judge Hunt's instructions at the Hearing and the
subsequent activities which led to the M&B Attorneys withdrawal and the entry of
the Judgment against Matthews. The approximately 23 judges who have previously
reviewed this basic legal issue where a former client is simply attempting to prevent
execution of the Judgment entered against her. There is simply no legal or factual
issue that merits this Honorable Court's issuing a writ of certiorari.

10

ARGUMENT AND CITATIONS OF AUTHORITY

I.

The Petition meets none of the considerations for granting a petition for
writ of certiorari and the Petition makes no attempt to explain why a
writ of certiorari should be granted, instead arguing the merits of the
case.
"Review on a writ of certiorari is not a matter of right, but of judicial

discretion." Sup. Ct. R. 10 . "A petition for a writ of certiorari will be granted only for
compelling reasons." Id. The following markers, although not completely setting
forth the Court's discretion, are considered upon a petition for a writ of certiorari: (1)
inconsistent decisions between circuit courts of appeal on an important federal
questions; (2) inconsistent decisions between a circuit court of appeals and a court of
last resort for one of the several states on an important federal questions; (3) a
decision by a circuit court of appeals that so far departed the usual course of judicial
proceedings, or sanctioned such a departure by a lower court, such that this Court
should exercise its supervisory capacity; (4) a state court of last resort has decided an
important federal question in a way that conflicts with the decision of another state
court of last resort or a circuit court of appeals; (5) a state court or circuit court of
appeals has decided an important question of federal law that has not, but should be,
decided by this Court or decides such a question that conflicts with relevant decisions
of this Court.
There are no compelling considerations for this Court to accept the Petition to
issue a writ of certiorari to the Eleventh Circuit Court of Appeals. This is a simple
contract dispute between Matthews and the Respondents, which dispute is governed
by basic and established principles of Georgia law. After multiple failed appeals over

11

the course of several ye ars, the Matthewses have now pivote d to the fe deral courts to
now waste federal resources on a frivolous appeal.

There is no constitutional

provision at issue . There is no factual or le gal disp ute that is so significant that it
re quires this Court's intervention. There is no disp ute between circuits, or between
circuits and state courts of last resort, governing a court's authority to enforce its
lawful orders . There is simply no reason to grant the Petition. Even in the section of
the Petition entitled "Re asons for Granting the Writ" , the Petitioners fail to identify
any compelling reason to issue the writ, again primarily arguing the merits of the
case and asserting that this Court must take "bold action and hold those in contempt
when [federal court's] orders are violated."

Petition at 1 6 .

consistently misrepresent what transpire d at the Hearing.

Yet, the Petitioners
The next section will

address the merits to refute the claims and arguments made by the Petitioners.

II.

The Eleventh Circuit properly affirmed the denial of the Petitioners'
Motion for Contempt because there is no evidence in the record
showing that the Respondents violated any order of the court in the
District Court Action.
" Courts have inherent p ower to enforce comp liance with their lawful orders

through civil contempt" which refers to a willful disre gard of the authority of the
court. Shillitani v. United States, 384 U . S . 3 64, 3 70 ( 1 966) ; Ga. Power Co . v. NLRB,
484 F . 3 d 1288, 129 1 ( 1 1th Cir. 2007) . "Upon appellate review, a civil contempt order
may be upheld only if the p roof of the [p arty's] contempt is cle ar and convincing. This
cle ar and convincing proof must also demonstrate that 1) the alle gedly violated order
was valid and lawful; 2) the order was cle ar, definite and unambiguous ; and 3) the

12

alleged violator had the ability to comply with the order." McGr�gor v. Chierico, 206
F.3d 1378, 1383 (11th Cir. 2000).
The entirety of the 11-page Motion for Contempt (excluding exhibits), 36-page
Brief of Appellant before the Eleventh Circuit and the Petition for Writ of Certiorari
is based on a false premise - that there is an order adjudicating the amounts owed to
Merbaum Law from Matthews that was entered prior to the Judgment8 . The M&B
Attorneys are not in contempt of any court order because there is no order that they
violated. Judge Hunt stated at the Hearing that he was requiring the Plaintiffs and
Respondents to attempt to reconcile their differences and "that is where I am going
to leave it." � at 28-31. The evidence presented as part of the Motion for Contempt
and the entire record reflects that the only order issued at the Hearing in the District
Court Action was for the Matthewses and M&B Attorneys to attempt reconciliation.
Id.

The evidence further showed that the Matthewses and M&B Attorneys

reconciled, executed the Amendment, and the M&B Attorneys withdrew the motions
to withdraw that were pending at the time of the Hearing. Supp. App. at 27-28. The
Motion for Contempt filed by the Matthewses is just another attempt in a long line of
attempts to avoid execution of the Judgment against Matthews.

Although the Matthewses make numerous arguments about the validity or
enforceability of the Judgment, the validity and enforceability of the Judgment is not
a question presented by this appeal or a question that is properly before this Court.
Indeed, this Court lacks jurisdiction to review and overturn the Judgment entered in
a civil action before the Superior Court of Cobb County, State of Georgia. Regardless,
the Judgment has already been reviewed by the Court of Appeals of Georgia and
affirmed.
8

13

The underlying attorney-client relationship arose out of the AC Agreement
between Merbaum Law and the Matthewses.

Merbaum Law withdrew from the

representation of Plaintiffs and eventually filed suit against the Matthewses and
obtained the Judgment in the Cobb Matter. 9

The Judgment was affirmed in

Matthews' First Appeal, her Motion for Reconsideration in the Court of Appeals of
Georgia was denied, and the Supreme Court of Georgia denied certiorari in the First
Appeal. Supp. App. at 36- 38. Despite these rulings, Matthews continues to not only
file more appeals, but has repeatedly moved to have Judge Reuben Green in the Cobb
Matter removed from the case based on frivolous allegations and has repeatedly
accused Merbaum Law, Judge Reuben Green and even the Clerk of the Superior
Court of Cobb County of improper behavior with no evidence to support the claims.
Matthews has filed complaints against the M&B Attorneys with the State Bar of
Georgia, all of which have been dismissed. The Matthewses even filed a complaint
with the State Bar of Georgia against the M&B Attorneys' new associate attorney
whose sole activities were related to responding to Matthews' frivolous actions and
serving post-judgment discovery requests.

The State Bar of Georgia summarily

dismissed the complaint prior to even seeking a response from the M&B Attorneys'
associate. All efforts taken by the Matthewses, and Matthews specifically, have been
to avoid paying a legitimate debt that is owed, which debt has been memorialized in
the valid Judgment affirmed by the Court of Appeals of Georgia.

The M&B Attorneys note that George Matthews was dismissed from the Cobb
Matter due to his discharge in bankruptcy.
9

14

Matthews latest attempt to avoid paymg her debt is an appeal of the
Matthewses' baseless, spurious and frivolous Motion for Contempt, the genesis of
which is a misrepresentation about the nature of Judge Hunt's instructions at the
Hearing. Matthews has repeatedly and wrongfully maintained that Judge Hunt
entered an order in the District Court Action which somehow adjudicated the
amounts owed by the Matthewses to Merbaum Law, a non-party in the District Court
Action. Not only is her argument incorrect, the Matthewses vain attempts to convince
other courts of this erroneous and frivolous argument have repeatedly failed.
Moreover, the Matthewses arguments in their brief do not support their
contentions. Indeed, the Matthewses' arguments in their brief to the Eleventh Circuit
confirm the basis for the Judgment: the Amendment was executed in October 2010

□

and "Plaintiffs made no payments to Attorneys David Merbaum or Andrew Becker
or their law firm for the amended agreement." Brief of Appellant, 11. By failing to
pay pursuant to the AC Agreement and Amendment, the Matthewses breached their
contractual obligations and Merbaum Law was entitled to seek entry of the Judgment
for said failure. The Matthewses argue that Judge Hunt issued two orders at the
Hearing: (1) an order allowing the M&B Attorneys' withdrawal prior to their
reconciliation; and (2) an order requiring that any reconciliation may only be based
on a contingency fee. Petition at 9-10. There are no such orders and the Matthewses
are blatantly misrepresenting the circumstances to this Court, as they have to
approximately 23 prior j udges (and with the Petition, now 32 judges or justices) .

15

The Matthewses also argued before the Eleventh Circuit without a valid basis
that the order was "suppressed from the court records" and " [t]here is a direct
relationship with the suppression of the court order and the attorneys' failure to
adhere to the court order."

Brief of Appellant, 15.

It is completely ridiculous to

suggest that the M&B Attorneys could have prevented the transcript of the Hearing
from being completed, filed and considered . No attorney has the unilateral power to
demand a court reporter employed or otherwise assigned to the U . S. District Court
suppress said transcript and to prevent the court from considering it. 10

The

Matthewses arguments further fail upon a review of the timing of relevant events.
The transcript of the Hearing was entered before the Matthewses filed for bankruptcy
protection, before the Judgment was entered, before the various appeals were filed,
before the Motion to Recuse was filed, and before the Motion for Contempt was filed.
Thus, the Matthewses have had access to the transcript, which they claim was·
suppressed, throughout the entirety of the dispute between the Matthewses and the
M&B Attorneys.
The Matthewses also engage in a lengthy soliloquy on the alleged mail fraud
related to their court cases, and accuse Judge Green in the Cobb Matter of "pursuing
them" and engaging in ex party communications. Petition, 14-15. The fraud related

10 The Matthewses dedicate over a page in their brief to the circumstances
surrounding their purchase of the transcript and filing it into the record. None of
those alleged facts or arguments are relevant to the questions before the Court namely, whether Judge Jones properly denied the Motion to Recuse and Motion for
Contempt. Importantly, the Matthewses presented no citations to the record to
support those allegations.

16

to the certified mail is simply the Clerk of the Superior Court's submission of the
appeals costs to the Matthewses based on their notice of appeal. And the allegation
of ex parte communications is even more ludicrous - the "communication" was the
Judge's office sending a copy of orders entered in the Cobb Matter to all parties, as it
is required to do by law.
Critically, the Matthewses acknowledge the fundamental condition of Judge
Hunt's order to attempt reconciliation that defeats their argument (although they
ignore the effect where, as here, the condition was not satisfied) which is that the
Respondents "would receive no additional money from the Plaintiffs' George and Nina
Matthews if the parties did not reconcile and attorneys were relieved from the
case." Brief of Appellant, 16 (emphasis added) ; see also, Petition, 9 . The record shows
that the Parties did reconcile because: (1) the Matthewses and M&B Attorneys
entered into the Amendment after the Hearing; and (2) the M&B Attorneys withdrew
their first motion to withdraw. Supp. App. at 27-28 .

The Matthewses admitted in

their Brief of Appellant before the Eleventh Circuit that they breached the
Amendment by making "no payments to Attorneys David Merbaum or Andrew
Becker or their law firm for the amended agreement" . Moreover, the Minute Sheet
for the Hearing and the transcript of the Hearing (quoted extensively in Judge Jones'
Order) reflects that Judge Hunt ordered the Matthewses and the M&B Attorneys to
attempt reconciliation, which actually occurred. Accordingly, there is no basis to
conclude that the M&B Attorneys violated a court order by obtaining a judgment for

17

outstanding attorney's fees or by filing a proof of claim or by filing a statutorily
permitted attorney's lien.
This appeal is just another attempt by the Petitioners to further delay
execution of the Judgment by wasting a sixth court's judicial resources on another
frivolous action in a long line of spurious actions by the Matthewses (and Matthews
individually) .

CONCLUSION
For the foregoing reasons, the M&B Attorneys requests that this Court deny
the Petition for Writ of Certiorari.
This 30th day of November, 2020.

700
ndrew J. Becker
Georgia Bar No. 142595
Respondents

MERBAUM & BECKER, P . C.
5755 North Point Pkwy.
Suite 284
Alpharetta, Georgia 30022
P: 678-393-8232
F: 678-393-041 0
dmerbaum@mbpclaw .com
abecker@mbpclaw .com

18

CERTIFICATE OF COMPLIANCE
The undersigned certifies that this document complies with the word or page
limit of Sup. Ct. R. 33 because this document contains 5 , 382 words.
This 30th day of November, 2020.

m

ar No. 00-6700
drew J. Becker
Georgia Bar No. 142595
Respondents

MERBAUM & BECKER, P.C.
5755 North Point Pkwy.
Suite 284
Alpharetta, Georgia 30022
P: 678-393-8232
F: 678-393-0410
dmerbaum@mbpclaw.com
abecker@mbpclaw.com

19

CERTIFICATE OF SERVI CE
I hereby certify that I have served the foregoing Respondep.ts' Brief in
Opposition to Petition for Writ of Certiorari upon the opposing party by placing
a copy of the same in the U.S. First Class Mail, with adequate postage affixed thereto
and properly addressed to:
George and Nina Matthews
6038 Katie Emma Drive
Powder Springs, Georgia 30127
This 30th day of November, 2020.

Da

G

n rew J. Becker
Georgia Bar No. 142595

Respondents

MERBAUM & BECKER, P.C.
5755 North Point Pkwy.
Suite 284
Alpharetta, Georgia 30022
P: 678-393-8232
F: 678-393-0410
dmerbaum@mbpclaw.com
abecker@mbpclaw.com

20

